Office of Audit Services Report | Office of Inspector General
Review of High-Dollar Payments for Maryland Medicare Part B Claims Processed by TrailBlazer Health Enterprises for the Period January 1, 2003 Through December 31, 2005
August 20, 2008 | Audit A-03-08-00025
Executive Summary
In report number A-03-07-00017, we requested that TrailBlazer Health Enterprises (TrailBlazer) recover outstanding $115,000 in overpayments from a total of $145,000.  TrailBlazer recovered $98,500 but was unable to recover the remaining $17,500 in overpayments because the Medicare Part B carrier for Maryland had transferred to Highmark Medicare Services (Highmark).  We provided a copy of report number A-03-07-00017 to Highmark for final resolution of the two outstanding overpayments totaling $17,500 as report number A-03-08-00025.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS